No. 20-1383
IN THE

Supreme Court of the United States
ARTHUR DIAMOND, ET AL.
v.

Petitioners,

PENNSYLVANIA STATE EDUCATION ASSOCIATION, ET AL.,
Respondents.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Third Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the UNION
RESPONDENTS’ JOINT BRIEF IN OPPOSITION in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 3,906 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 10, 2021.
/s/ Jacob Karabell
JACOB KARABELL
(Counsel of Record)
BREDHOFF & KAISER, P.L.L.C.
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
jkarabell@bredhoff.com
Counsel for Pennsylvania State
Education Association and
affiliates

